     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103

October 29, 2010

Report Number: A-09-10-02044

Mr. Michael Hamerlik
President and Chief Executive Officer
Noridian Administrative Services, LLC
900 42nd Street South
Fargo, ND 58103

Dear Mr. Hamerlik:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicare Contractor Payments for Neulasta
Injections in Alaska, Arizona, and Washington for Calendar Years 2004 Through 2007. We will
forward a copy of this report to the HHS action official noted on the following page for review
and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call Lorrali
Herrera, Senior Auditor, at (619) 557-6131, extension 105, or through email at
Lorrali.Herrera@oig.hhs.gov, or contact Alice Norwood, Audit Manager, at (415) 437-8360 or
through email at Alice.Norwood@oig.hhs.gov. Please refer to report number A-09-10-02044 in
all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Mr. Michael Hamerlik


Direct Reply to HHS Action Official:

Ms. Nanette Foster Reilly
Consortium Administrator
Consortium for Financial Management & Fee for Service Operations
Centers for Medicare & Medicaid Services
601 East 12th Street, Room 235
Kansas City, MO 64106
  Department of Health & Human Services
             OFFICE OF
        INSPECTOR GENERAL




      REVIEW OF MEDICARE
   CONTRACTOR PAYMENTS FOR
    NEULASTA INJECTIONS IN
ALASKA, ARIZONA, AND WASHINGTON
      FOR CALENDAR YEARS
       2004 THROUGH 2007




                        Daniel R. Levinson
                         Inspector General

                          October 2010
                          A-09-10-02044
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Before October 1, 2005, section 1842(a) of the Act authorized CMS to contract with carriers.
For purposes of this report, the term “Medicare contractor” means the fiscal intermediary,
carrier, or Medicare administrative contractor, whichever is applicable.

Medicare contractors process and pay Medicare Part B claims submitted by physicians and
medical suppliers (providers). Medicare contractors also review provider records to ensure
proper payment and assist in applying safeguards against unnecessary utilization of services. To
process providers’ Part B claims, Medicare contractors use the Medicare Multi-Carrier Claims
System and CMS’s Common Working File. These systems can detect certain improper
payments during prepayment validation.

Individuals receiving chemotherapy often suffer from a low white blood cell count. Providers
inject patients with pegfilgrastim (Neulasta), usually in 6-milligram doses, to stimulate bone
marrow and promote the growth of white blood cells. Before January 1, 2004, CMS assigned
Healthcare Common Procedure Coding System (HCPCS) code Q4053 to Neulasta injections and
defined one service unit as 1 milligram. Effective January 1, 2004, CMS changed the HCPCS
code for Neulasta to J2505 and defined one service unit as 6 milligrams, which represented a
standard dose.

During calendar years (CY) 2004 through 2007, Noridian Administrative Services, LLC
(Noridian), was the Medicare contractor for providers in Alaska, Arizona, and Washington.
(Before December 2006, Noridian Mutual Insurance Company (Noridian Insurance) was the
Medicare contractor for providers in Arizona.) During this period, Noridian and Noridian
Insurance processed and paid more than 108 million Part B claims, of which 41,317 claims
included Neulasta injections in these three States.

OBJECTIVE

Our objective was to consolidate the results of our reviews of six selected Medicare Part B
providers in Alaska, Arizona, and Washington that billed Medicare for Neulasta injections.
Those reviews determined whether the six providers billed Medicare for the correct number of
service units of Neulasta.

SUMMARY OF RESULTS

For 156 Medicare claims reviewed, 6 providers in Alaska, Arizona, and Washington billed
Medicare for the incorrect number of service units of Neulasta. Consequently, during CYs 2004
through 2007, Noridian and Noridian Insurance paid these providers $461,945 instead of



                                                i
$308,867, resulting in overpayments totaling $153,078. Noridian and Noridian Insurance made
these overpayments because the providers billed for more than one service unit for every
6 milligrams of Neulasta administered.

RECOMMENDATION

We recommend that Noridian consider reviewing Neulasta claims with the incorrect number of
service units that were not part of this review.

NORIDIAN COMMENTS

In its comments on our draft report, Noridian concurred with our recommendation and provided
information on actions taken to implement the recommendation. Noridian’s comments are
included in their entirety as the Appendix.




                                              ii
                                                  TABLE OF CONTENTS

                                                                                                                                        Page

INTRODUCTION..........................................................................................................................1

          BACKGROUND .................................................................................................................1
              Medicare Part B Contractors ....................................................................................1
              Medically Unlikely Edits .........................................................................................1
              Payment for Neulasta ...............................................................................................2
              Medicare Contractors for Alaska, Arizona, and Washington .................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ...............................................................2
               Objective ..................................................................................................................2
               Scope ........................................................................................................................3
               Methodology ............................................................................................................3

RESULTS OF REVIEWS AND RECOMMENDATION..........................................................4

          MEDICARE REQUIREMENTS .........................................................................................4

          INCORRECT NUMBER OF SERVICE UNITS BILLED .................................................4

          MEDICARE SYSTEM EDITS............................................................................................5

          RECOMMENDATION .......................................................................................................5

          NORIDIAN COMMENTS ..................................................................................................5

OTHER MATTER.........................................................................................................................6

APPENDIX

          NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS




                                                                    iii
                                                INTRODUCTION

BACKGROUND

Pursuant to Title XVIII of the Social Security Act (the Act), the Medicare program provides
health insurance for people aged 65 and over and those who are disabled or have permanent
kidney disease. The Centers for Medicare & Medicaid Services (CMS) administers the program.

Medicare Part B Contractors

Before October 1, 2005, section 1842(a) of the Act authorized CMS to contract with carriers. 1
Medicare contractors process and pay Medicare Part B claims submitted by physicians and
medical suppliers (providers). Medicare contractors also review provider records to ensure
proper payment and assist in applying safeguards against unnecessary utilization of services. To
process providers’ Part B claims, Medicare contractors use the Medicare Multi-Carrier Claims
System and CMS’s Common Working File. These systems can detect certain improper
payments during prepayment validation.

CMS guidance requires Medicare contractors to pay for certain drugs based on the published
average sales price. 2 CMS guidance also requires providers to bill accurately and to report units
of service as the number of times that the provider performed a service or procedure. During
CYs 2004 through 2007, providers nationwide submitted approximately 3.2 billion Part B
claims, totaling over $294 billion, to Medicare contractors. Of these claims, over 1 million
claims for pegfilgrastim (Neulasta) 3 injections resulted in payments of approximately
$1.7 billion.

Medically Unlikely Edits

In January 2007, during our audit period, CMS required Medicare contractors to implement
units-of-service edits referred to as “medically unlikely edits.” CMS designed these edits to
detect and deny unlikely Medicare claims on a prepayment basis. According to the CMS
Medicare Program Integrity Manual, Pub. No. 100-08, Transmittal 178, Change Request 5402
(December 8, 2006), a medically unlikely edit tests claim lines for the same beneficiary,
procedure code, date of service, and billing provider against a specified number of service units.
Medicare contractors must deny the entire claim line when the service units billed exceed the
specified number.

1
 Section 911 of the Medicare Prescription Drug, Improvement, and Modernization Act of 2003, P.L. No. 108-173,
required CMS to transfer the functions of fiscal intermediaries and carriers to Medicare administrative contractors
between October 2005 and October 2011. Most, but not all, of the Medicare administrative contractors are fully
operational; for jurisdictions where the Medicare administrative contractors are not fully operational, fiscal
intermediaries and carriers continue to process claims. For purposes of the report, the term “Medicare contractor”
means the fiscal intermediary, carrier, or Medicare administrative contractor, whichever is applicable.
2
 Pursuant to 42 CFR § 414.707(a)(1), the payment allowance limit in calendar year (CY) 2004 was 85 percent of the
average wholesale price. However, beginning January 1, 2005, 42 CFR § 414.904(a) established the payment
allowance limit as 106 percent of the average sales price.
3
    Neulasta is Amgen’s registered trademark for the medication pegfilgrastim.


                                                           1
Payment for Neulasta

Individuals receiving chemotherapy often suffer from a low white blood cell count. Providers
inject patients with Neulasta, usually in 6-milligram doses, to stimulate bone marrow and
promote the growth of white blood cells. For Part B drugs, including Neulasta, Medicare
contractors determine the provider payment amount as the lesser of the Part B drug fee schedule
amount times the number of units billed or the claimed amount.

In 2003, CMS assigned the administration of Neulasta injections the Healthcare Common
Procedure Coding System (HCPCS) code Q4053, which defined the unit size as 1 milligram.
Providers billed for six units because they usually administer the drug in 6-milligram doses
(generally from a prefilled syringe). Effective January 1, 2004, the HCPCS code changed to
J2505 and identified a 6-milligram dose as one unit.

CMS documented the new HCPCS code J2505 for Neulasta with changes to its Medicare Claims
Processing Manual, Pub. No. 100-04. On December 24, 2003, CMS issued Transmittal 54,
Change Request 3022, to Medicare contractors that defined a service unit under HCPCS code
J2505 as “injection, pegfilgrastim [Neulasta] 6mg.” On May 12, 2006, CMS issued
Transmittal 949, Change Request 4380, to Medicare contractors (fiscal intermediaries but not
carriers) clarifying the billing procedures for Neulasta. The change request stated: “Claims for
Pegfilgrastim J2505 [Neulasta] shall be submitted to Medicare contractors so that the units billed
represent the number of multiples of 6MG provided, not the number of MGs.” Similarly,
notification of the description of HCPCS code J2505 as one dose of 6 milligrams was published
three times in the Federal Register in 2004, beginning on January 6, 2004.

Medicare Contractors for Alaska, Arizona, and Washington

During CYs 2004 through 2007, Noridian Administrative Services, LLC (Noridian), a subsidiary
of Noridian Mutual Insurance Company (Noridian Insurance), was the Medicare contractor for
providers in Alaska, Arizona, and Washington. 4 During this period, Noridian and Noridian
Insurance processed and paid more than 108 million Part B claims, of which 41,317 claims
included Neulasta injections in these three States.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to consolidate the results of our reviews of six selected Medicare Part B
providers in Alaska, Arizona, and Washington that billed Medicare for Neulasta injections.
Those reviews determined whether the six providers billed Medicare for the correct number of
service units of Neulasta.



4
 During our audit period, Noridian was the Medicare Part B carrier for Alaska and Washington, and in December
2006, it assumed responsibility as the Medicare administrative contractor for Arizona. Before December 2006,
Noridian Insurance was the Medicare Part B carrier for Arizona. At the time of our audit, CMS had not selected the
Medicare administrative contractor for Alaska and Washington.


                                                        2
Scope

To select the providers, we identified paid Medicare Part B claims for Neulasta injections for
which providers billed more than one service unit and had potential overpayments greater than
$5,000. We identified and reviewed 156 claims billed by 6 providers in Alaska, Arizona, and
Washington that Noridian and Noridian Insurance processed and paid during CYs 2004 through
2007.

We did not review the six providers’ internal controls because our objective did not require an
understanding of controls over the submission of claims. However, we performed a limited
review of internal controls applicable to the processing and paying of claims for Neulasta
injections at the current Medicare contractor, Noridian. Our review allowed us to establish
reasonable assurance of the authenticity and accuracy of the data obtained from CMS’s National
Claims History file, but we did not assess the completeness of the file.

We conducted our fieldwork from February to October 2009, which included contacting the six
providers in Alaska, Arizona, and Washington that received payments for Neulasta injections. In
addition, we contacted officials from Noridian located in Fargo, North Dakota, from March to
September 2010.

Methodology

To determine whether the selected providers billed Medicare for the correct number of service
units of Neulasta, we:

   •    reviewed applicable Medicare laws, regulations, and guidance;

   •    used CMS’s National Claims History file to identify paid Medicare Part B claims with
        more than one service unit of Neulasta that had not been reviewed in other audits;

   •    contacted the providers to determine whether the service units of Neulasta were billed
        correctly and, if not, why the service units were billed incorrectly;

   •    reviewed Medicare claim forms, patient medical records, and providers’ additional
        supporting documentation that supported the identified claims;

   •    used the Medicare Part B drug fee schedules, published by CMS, to calculate
        overpayments identified in CYs 2004 through 2006; and

   •    confirmed with the providers that overpayments occurred.

We issued a restricted report to each of the six providers from October to December 2009.

We also interviewed staff from Noridian to determine whether it issued guidance to its providers
and had any policies, system edits, or other claims processing controls to prevent overpayments
for Neulasta.



                                                3
We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                        RESULTS OF REVIEWS AND RECOMMENDATION

For 156 Medicare claims reviewed, 6 providers in Alaska, Arizona, and Washington billed
Medicare for the incorrect number of service units of Neulasta. Consequently, during CYs 2004
through 2007, Noridian and Noridian Insurance paid these providers $461,945 instead of
$308,867, resulting in overpayments totaling $153,078. 5 Noridian and Noridian Insurance made
these overpayments because the providers billed for more than one service unit for every
6 milligrams of Neulasta administered.

MEDICARE REQUIREMENTS

CMS’s Carriers Manual, Pub. No. 14, part 2, section 5261.1, requires that Medicare contractors
process claims accurately in accordance with Medicare program laws, regulations, and
instructions. Section 5261.3 of the manual requires Medicare contractors to develop a medical
review program that “effectively and continually analyzes data that identifies aberrancies,
emerging trends and areas of potential abuse, overutilization or inappropriate care, and focusing
on areas where the trust fund is most at risk, i.e., highest volume and/or highest dollar codes.”

CMS’s Medicare Claims Processing Manual, Pub. No. 100-04, chapter 17, section 20, requires
Medicare contractors to pay for certain drugs based on the published average sales price. The
maximum allowable payment equals the lesser of the Part B drug fee schedule amount times the
number of units billed or the claimed amount. The Medicare contractor pays the provider
80 percent of the maximum allowable payment amount; the beneficiary pays the remaining
20 percent.

CMS’s Transmittal 54, Change Request 3022, defined a service unit under HCPCS code J2505
as “injection, pegfilgrastim [Neulasta] 6mg.” Therefore, during our audit period, for every
6 milligrams of Neulasta administered to a patient, providers should have billed Medicare for
one service unit. The transmittal instructed Medicare contractors to inform providers of this
requirement.

INCORRECT NUMBER OF SERVICE UNITS BILLED

For all 156 claims reviewed, the 6 providers billed Medicare for the incorrect number of service
units of Neulasta. Rather than billing one service unit for every 6 milligrams of Neulasta
administered, as Medicare required, providers billed more than one service unit for every
6 milligrams. Specifically, for 155 of the 156 claims, 5 providers incorrectly billed for 6 service
units rather than 1 service unit for every 6 milligrams of Neulasta. For the remaining claim,
1 provider billed for 4 service units rather than 1 service unit for every 6 milligrams of Neulasta.

5
    All overpayments occurred for services provided during CYs 2004 through 2006.


                                                         4
Consequently, Noridian and Noridian Insurance paid these providers $461,945 instead of
$308,867, resulting in overpayments totaling $153,078.

The table below summarizes the results for all six providers reviewed.

                           Neulasta Overpayments at the Six Providers


                             Calendar    No. of       Medicare    Correct
     Provider      State      Year       Claims        Payment    Payment    Overpayment
        1          AK          2006         5          $51,638     $8,606      $43,032
        2          AZ          2004       20            94,464     38,114        56,350
        3          AZ          2004      128           287,531    256,760        30,771
        4          WA          2006         1           10,314      1,719         8,595
        5          WA          2005         1            9,974      1,662         8,312
        6          WA          2004         1            8,024      2,006         6,018
      Total                              156          $461,945   $308,867     $153,078

All six providers agreed with our findings that they billed for the incorrect number of service
units of Neulasta and refunded the overpayments to Medicare. The providers attributed the
incorrect billing primarily to the change in the number of milligrams per service unit of Neulasta
from 1 milligram to 6 milligrams.

MEDICARE SYSTEM EDITS

The medically unlikely edits that CMS required Medicare contractors to use starting in
January 2007 did not include Neulasta injections. Therefore, during our audit period, Noridian
and Noridian Insurance processed claims submitted by providers for more than one service unit
of Neulasta.

RECOMMENDATION

We recommend that Noridian consider reviewing Neulasta claims with the incorrect number of
service units that were not part of this review.

NORIDIAN COMMENTS

In its comments on our draft report, Noridian concurred with our recommendation and provided
information on actions taken to implement the recommendation. Noridian’s comments are
included in their entirety as the Appendix.




                                                  5
                                      OTHER MATTER

We reviewed CMS’s National Claims History file to determine whether there were paid
Medicare Part B claims with more than one service unit of Neulasta after our audit period. We
identified two claims for Washington providers that billed Medicare for more than one service
unit in CY 2008 with potential overpayments greater than $5,000. Based on the Medicare Part B
drug fee schedules published by CMS, we estimated that these providers received approximately
$10,000 in potential overpayments for more than one service unit of Neulasta.

In its comments on our draft report, Noridian provided information on actions taken to recoup
the overpayments for these claims.




                                               6
APPENDIX
APPENDIX: NORIDIAN ADMINISTRATIVE SERVICES, LLC, COMMENTS 





           .~
           NDRIDIAN®                                                                       Pau l O'Donnell
           Administrative Services LLC                                                     Vice President of Medicare
                                                                                           Operations
                                                                                           900 42 nd St South
                                                                                           Fargo, NO 58103
                                                                                           (701 )277-2401
                                                                                           FAX (701) 277-5150
                                                                                           paul.odonnell@noridian.com




             October 15, 2010

             Lori Ahlstrand 

             Office of Inspector General 

             Office of Audit Services, Region IX 

             90 - i h Street, Suite 3-650 

             San Francisco, CA 94103 


             RE: Report Number A-09-1 0-02044

             Dear Ms. Ahlstrand:

             Thank you for the opportunity to respond to the draft report of the U.S. Department of Health & Human
             Services, Office ofInspector General (OIG) dated September 30,2010, entitled, Review ofMedicare
             Contractor Payments for Neulasta Injections in Alaska, Arizona, and Washington for Calendar Years
             2004 Through 2007.

             We concur with the recommendation that Noridian review Neulasta claims with the incorrect number of
             service units that were not part ofthis review.

             Noridian did review all Neulasta claims for the states of Alaska, Washington, Oregon, Montana, North
             Dakota, South Dakota, Wyoming, Utah and Arizona that were not part of this review. Noridian has
             recovered all overpayments related to this issue. In addition, Noridian has installed a claims processing
             edit that will only allow payment for 1 unit of J2505 PegfilgrastimlNeulasta. Additionally, these
             corrective actions have addressed the item described in the "Other Matter" section of the report.

             Please advise if additional information is needed or if further clarification is needed on any of our
             responses.

             Sincerely,

            / Paul O'Donnell /

            Paul O'Donnell 

            Vice President 

            Noridian Administrative Services, LLC 





29309515                                 A eMS Contracted Carrier/[nlermedimy                                7106
